     ENFORCING CHILD CARE

          REGULATIONS





            Richard P.   Kusw
            INSPECTOR GENERAL




OEI.Q00                         FEBRUARY 1990
                                ............
                    ................ .................................
                                                 .... ...........      .......................................
                ..................................................... .......... ..........             ........ ...
                                                                                                                  ...




                                                TABLE OF CONTENTS



EXECUTIVE SUMMARY

                    0 N . ...                                                                                           .... ........ ..... ... ..... 1
I NTR 0   D U CTI

                                                                   ................... ............. ............ ......... ....... ......... 4
FIN DI N GS. ...

EFFECTIVE PRACTICES ....................................................................................... 17
                                                                                                                        ..................... A .1
APP EN DIX
                               EXECUTIVE SUMMARY


PURPOSE
The purse of th repo is to prvide an assessmnt of
                                                  curnt State reguatory enforcment
effor in chid       car.




BACKGROUND

Stas have     the
regarg chid ca. The
                    pr
                     responsibilty for estalihig and enforg
                           Ofof Hum Development Serces
                                                                   stada ana regwnons
                                                                  supp
                                                                    chid ca thugh
the Socal Serces Block      (tide XX. The Famy Suppo Act of 1988 fuds chid car
                            Grt
for Ai to Fames with Dependent Chdrn          (AF beneficies who tae par in the Job
                                                                Fe prgr,
                                                                       parcipatig
Opties       and Basc      Ski
                           (JOBS)prgr         Unde both
prvi must meet applicable State stada.

Ther ar    th major kids of chid ca chidrn
                                     settgs in the Unite States. Accordg to the U:S.
                                            ofworg mothers spend their days in the
 Census Buru, 41 percnt of preschool
 homes of other mothers. Ths is known as famy chid
                                                          ca.Although 47 States regulate
                                                                              ar not
 famy chid car, 13. States defie it in such a way that large numbers of homes
 cover
 Twenty ne                         age 5 ar in
               pent of chidrn undeand
 Al Stas regute chid car cente
                                                   or   chid ca centers or preschools.
                                      only tWo do not inspt centers annualy.

                                                    age 5, is supervion in the
 The   th ty of argement, for 30 pent of those unde
                                                Th ty of ca is not regute in
 chid' s own home by a nany, sitt, frnd,     or relave.

 any State.




  METHODOLOGY

  We inteewed chid car      licensing   adstto andNewinsp     in al               Distrct
                                                                       SO States, the
                                                       York City, these intervews were
  of CoI bia, and New York City. In nie Stas and                          referr agency
                                                        resour and
  conducte in person. On-site intews wer also held with
  st, chid car provide, and chil        ca exp frm the prvate and public sectors.
FINDINGS


Stis Do Not Regulat   Child Car In AU Types   Of Settngs.


Patrn Of StDe Regulaon Are Constatly Cluging.
Frequent Visits Are The Best Way To Ensur   Complie. However, Only A Porton Of
       s Are MomwredR mmi

Legal Santins Are 7ime-Consuming And DilfuU To Enforce, Even In Cases Of
Imminent Danger.

Parnt Involvement Is Considered The Fir Un Of Defense But May Be The Weakst
Li In The Chan.
Stis Are   Exprientng With New Ways To Improve      The Oversght Of ChUd Care.


Resource And Refen-al Agencies Are Emergng As An Effective Source For Training,
Technial Assistance, And Provir Networking.




EFFECTIVE PRACTICES

In ou companon repo to th   volum, we descbe a numbe of prtices' States might
consde to imprve thei enforment expences. Thes prtices include tehnques to
                         prurs,
imve legal sanctions andtrnig      inspons, moneta incentives and penalties,
                              and tehn assitace for prviders. For mor
parnta involvemnt, and
inoron, plea refer to 'Ofce of Insp Gener "Effecve Prtices in Chd
Enforment," OAI-03- 89-O701.
                                  INTRODUCTION


PURPOSE

The purse of ths report is to prvide an assessmnt of cmrnt State reguator enforcement
effor in chid car. Ou fidigs on effective prces by Sta licensig agencies
prsente in a separte report
BACKGROUND

Sta have the pri     responsibilty for estalihig and enforcg    stada   and regutions
                                                                      chid car thugh
regarg chid car. The Ofce of Hum Development Serces support            fuds chid car
theSoc    Serces Block   Grt  (tide XX. The Famy Suppo Act of     1988
for Ai to Fames with Dependent Chdrn       (AF    beneficiares who ta par in the Job
Oppoties and Basc Skis (JOBS)       prgr     Unde both   Fera prgr,      parcipatig
prvi     must meet applicable Sta  stada.
Ther ar    th major kidsfamyof chid ca in the Unite States. For
                                home ca, in which toer ar car
                                                              chidrn under
                                                                for in the
                                                                            5, the most
                                                                           homes   of
common argement
other mother. Accorg to the U. S. Census Buru, 41 pent of prschool chidrn of
workig mothers spnd their days in such ca. An adtional 21 percent ar in organze
chid ca cente or preschools. The    th ty   of argement, for 30 percent of those under
5, is supeion in the chid' s own home by a
                                           nany, sitt, frend,or relative. The remaining
  Pent ar in a varety of other ca settgs.
The Census Bmeu alo report that in 1986 fames with incomes above the povert lie
paid an averge 
 f $45 per week for chidcaor 6 pent of their income. Those famlies

                                                      pent
with incomes below the povert lie pai $32 pe week or 22        of their income.

 Chd ca is one of the fastest grwig segmnts of the Amca ecnomy. The Sma
 Business Admstrtion report that chid ca is now the numbe one new     ta up.

                                                                       business


 In 1986, the Census Buru estimate th 9 mion prschool chidrn reuir car
                                                                                  durg
 the hour their mothers work Yet, the 1986 Natonal State of Day Ca Regulation study
                                     incrgly
 found that State licensing agencies ar          unable to meet their own inspetion
 reuiments. As      demad for and supply of chi car esates, State licensing agencies
 rensibilty in regulatig chid car facties al     incrs.
 Although prvious national studies have deliea States ' licensing reuirments and
 regutions, none have looked at State reguatory enforent. Conseuently, ths inspection
 focuse on States ' experiences in enforg their chi ca reguations. Our findigs
    sente to incrase congrssional and Deparnta awarness of the
                                                                    enforment issue and
 inor   State licensing agencies of developments acss the nation.
                                      ""                                                                   ""                        ""




METODOLOGY

Dat wascollecte frm all 50 States and the Ditrct of Columbia thugh a combination of

telephone discssions with State
tWo Sta agencies which shar chid
                                          adminis       and   tr
in-pen and telephone inteews. In 41 Stas and the Ditrct of Columbia,
                                                                       we conducte
                                                                               inspto.
                                                                      In Connecticut, offcis in
                                                   regution authorty were inteewed On-site
                                                            ca
inteews wer conducte in nie States and New York Oty. (Wen referrg to
                                                                                        the numbe
of Stas in ths                  the tota of 53 includs New Yor Oty, the Distrct of Columbia, and
                                rert
tWo State agencies in Connecticut.)



Respndents include State                      adstrto and insp,public
                                                                 resour and refer agency sta,
                                                                      se exp wer also
prvi,
inteewed
                   and chid car advocac grups. Prvat and
                          Finaly, we reviewed           tWo nationa studies on State chid                        car regutions that
have not yet ben published

Unless otherse cite al inormtion contaed in th repo is bas on
                                                              intervews or
reviw of State statutes and reguations.

Defin ofTenns
In ths repo we refer to                    th
                              basc cagores of reguon: licensing, certcation, and
regitrtion.           is the most comprhensive for of reguation. Generay, it involves
                          Licensing


fi, heath, and State agency inspons pror to issuance of a license, and periodc
intions whie the facilty is in operation.
                                                                            Cral
                                                   and chid abuse reor ar checked

and           faty
            operatig policies                                        ca rage frm
                                                 ar develope and reviewed
                                                                                              Registratn


self-ccation by the provider with no outsde inspons to a process as complex as
licensig.            Certificatin          fals betWeen      licensig and regitrtion.


We            al refer to th           tys     Child car centers
                                              of facties.
                                                                 ar non-residential facilties where
prvi ca for a lage (genery mo th- 12) grup of for one to six chidrn. Ha of
                                                                 chidrn not relate to them. A
             is usualy a resince wher one prvi cas
famly home 


 the Stas have         category,      th
                                 group homes,
      wher 2 prvide car for up to 12 childrn.
 (Spec defitions var frm State to State.
 In rety, there ar substatial differences amng the States in their definitions of these and
 other         te.
             The same term can have diernt                                   megs
                                                        in State regulations. For example:

                      Centers can be located in "any hom or facty" or restrcted to "anyplace that is
                      not the residence of the license." Cente may sere "
                                                                           13 or more childrn under
                      age 16, more than 5 chidrn or inants," or "  21 or more childrn.



                       Group homes 
        can car for "no mo               th   14 chidrn,                    13 to 20 childrn,"or " not
                       less than 7 or mor than 12 chin.                       Famly homes 
                 car for " 1 to 6 childrn,
                                                                                                           both famy and grup homes,
                       more than 10 childrn,"               or " 5 or 6 chidrn."              For
      licensed capacity 
          can "include al   chidrn of any   cagiver"   or "exclude the
      cartaer s             own chidrn.


                         does not necssay me "out of busess." Revocation can
      Ucense revocaton 


      mean " the perment removal of a cente s license" or the "              for
                                                                     act of closing a
      chid car facty due to violaon." A prvide whose licens is revoked can apply
      for a new license " yea followig revoction" or "not for a period of at least 6
      months." In one lage State, a prvide whose licens has ben revoked can
      imedately reapply.

      Susension             of a license can   oc    when "a   licens holder faiur to comply (with
      reguations) has placed the heath, safety, or rights of            pens seed by the
      progr           in              "rte   noncomplice that dos not
                            ;mm;nent dager or for
      endager the heath and saety of chidrn.

                                    issued for a facty "applYig for inti licensu" or
                                       ca be
           provisiona license 


        when annual1icense expirs and applicat is                tepoy
                                                               unable to comply. " It
       can be issued for a period "not to exce 6 months" or "not grater than 3 yea.

                               y be issued "when the individual or agency fais               to
            condtional license 


       comply" or " to a new facty in       to       or pet
                                                      applicant to demonstrte
       compliance.

Re   should apprete these diernces in                  intetig our fidigs.
                                             FINDINGS

STATES DO NOT REGULATE CHILD CARE IN ALL TYPES OF SETTINGS.

Al States license or cert cente, and 28 license or  cefamy homes. Another 11 States
regite famy homes and 3 use both licensg and regitrtion. Four regute famly homes
only on a volunta bass, 3 reguate only subsidi famy homes, and 3 do not reguate
them at al Ha of the States license,    regite, o: ce        grup homes. The     table below
shows the numbe of facties our       respndents repo        they reguate in eah category.




                           Number       of   Regulated Facilities

                Cente                                         65,728
                Grup Homes                                       309
                Famy Homes                                   163,078
                Other                                            541

                 Tota                                        240,656




Th   States reui a cral reor             check of     st in centers and 27 reui     such checks for

famy homes. Chd abus re             tr checks   ar reui
                                                  for center providers in 17 States and
for famy homes in 18 States. However, we found no clea consensus on whether such
checks have ben effective in   identig a signcat          numbe of     potential violator.


Reguations can be waived unde       ce    citaces           in 36 States. Grunds for waivers
                                    heath and saety reuiments,         waivers ar   fruently
dier. Whe States do not waive
                                                                advocate note
reuested for capacty, sta quacations, and outd spac. A provider
"Ter ar a grwig      numbe of unqualed prvide, parculary
                                                                         in cente, beause States
often waive education reuiments so facties ca meet sta to chid ratios.

Family Homes Are Often Exemptfrom Reguon.

One in si fames live in States with ver lited or no reguation of family homes. Only 15
States regute providers  cag  for one chi or mor. In 13 States regulation of famy
homes begis with the enrllent of two,           th,
                                             or four childrn. Eleven do not regulate

famy homes carg for fewer than five chidrn.             Th
                                                     States don t regulate famly homes at
all. The remag 10 either regulate on a volunta basis or did not prvide infonnation on
the number of chidrn permtt in famly homes.
..




          Census Burau repo th of the 9 mion            school chidrn in chid car, 3:7 mion
     (41 pent) ar    ca    for in someone else s home. Based on repo frm 34 States and the
                                                                                       chin ar car
     Disuict of.Columbia, we have       cacul that alost 1. mion prschool
     for in reguate famy ca. Accgly, we estiate that over 2 mion prSChbOl chidrn
     ar being  ca   for in uncense or unguate famy homes.




                                   Number          of   Preschool Children In
                                   Unregulated Family           Care     Homes

                      Tota Chdrn             Ca for in
                      Famy Homes                                        690,

                      Chdrn Ca                for in
                      Reguate Homes                                    1,371, 383

                      Chdrn Ca                for in
                      Unrgute               Homes                       318,617*




       See the appndi for more deta on the method use to cacuate th figu.


     Most ChU Car Centers Are Reguatd.

                                            cente and grup homes have a combined license capacty of
      Natonwide, mor than 65,00
         mion chidrn. Accorg                  to Sta adminis   tr,grup homes in
                                                                 States inspte 87 pent (56, 800 of
                                                                                    1988.
      65,(0)   of cente   and 70   pent (4,40 of 6,3(0) of
      States reguons ar mo strct for cente than for famy homes. In 30 States, center
      dito     must have at least some college education or an equivalent amount of work
      expence. Only five States have no educational or expeence reuirments for ditors.
      Cente sta must also met         mium  educational reuiments in    17 States. Seven States
                                                                     4 Centers and 

      have siar   educational reuirments for grup home dito.                        grup homes

      ar also held acountable to mor rigid health and safety              stda
                                                                        than famy   homes.

      However, may States exempt lae numbers of child                  ca
                                                            facties frm licensing. . In 28
      States,  prgr   approved by the Boar of Education ar exempt. Oter States exempt
      par- tie prschools (19), churh afte progr (12), and hospita                    adstere
                                                                                      faclities
      (7). Ony si States have no exemptions.
                                            ............... ...................................
                                            ........... ................ .......................




      PA1TRNS OF STATE REGULATION ARE CONSTANTLY CHANGING.
      Over Iuf   of th StDes have sigmfiantly       chaged           th regullns        within the past            years.

      1\enty-nie States have ma major reguato changes in the past 2 year inchangig
                                                                            the ara of chid
                                                                                     nee.
      ca. States ar cratig new cagores with chid ca regutions to meet
          Plas State inspe explaied                have to be constady changig and flexible.
                                            "Reguations
      In 6 Stas, reviions have focuse on alteat ca                    prgr
                                                                such as befor and afr school,


                 chid car.
      night and sick car. Night car is for chidrn whos parnts work night or
      Sick car isa rapidly expandig new concet for chidrn who ar
      us
      In 1989,   nie Stas wer in the prss of revig their reguations. Some ar
                                                                             irguar shi.
                                                                    temporay to il for their



                                                                                                            trgcarnew
      apphes to developing reguations, such as public for admini
                                                           wi parnts and chid
      exp or appointig advi counci of exp,                       sttor, advocacy
                                                                     electe                                       grups,

      and-parnts.

      Regulary cluges concern healh an              soely
                                                               (22     Stas), provir     traimng          (8),   provir
      IJflatns
                      (7),    an staff to chUd rats (7).
.I.

      Stas ar al      incrg reguaton of trsption seces, outdoor retion, and
      cral background andditors                     Trag reuirments ar also
                           child abuse checks of prvide.
      being rase for cente        and sta.

                                                                   most have incrased the
       Seven States have changed sta to chid ratio reuiments. Whe
       numbe of sta            tWo States have reuce ths numbe. Four States have adde or
                             reuir
       stngtened regulations for inant and        toer ca.
       Most States place chid     ca
                               licensing agencies in                 so
                                                      sece deparents. The following
                                                             car licensing authorty.
       cha shows the tys of deparents in which Stas pla chid


                                               Avalable Sanctions
                                                            n . &3 Sttes




                                                             Sanctions
. .




      Th-eight (of 53) States pla chi ca linsing           in a soal servces Or huma
                                                                   authorty
      resOmcs dearent, whie eight ar in a heath deparnt. Six ar in umbrella agencies
      coverg both heath and soal seces. One is in a consuer and reguto afai
      dearent.
      The   adtratve locatn olth chi                 care liensing         functin may have an effect on
      whih regulns are emp1ud an th type of sta                            who inspct   facilites.

      Accg to respndents, so sece or hum resomc agency sta may tend
                                  lite             uidig cos, santation, and
      empha chid development, and have                      knowledge of


      nutrtion.

      In contrt, health deparnt             inpe,
                                           genery                  regist
                                                              nures or persns with heath
      backgrunds, tend to emphas physical saety, nutrtion, and heath reord; they have
      lite    knowledge of dicipliar tehnques and developmentay apprpriate activities.

      Sta heath            adsttors indicate th they strngly believe heath deparnts ar the
      most apprrie deparent to handle chid               ca teguaton enforement.
                                                                              Accorg to one
      State heath offcial "Heath and saety ar the           only   major conces in chid
      enforment."            However, a   Norweste inspto voice the nee to, "Tnk of day                   car


      so serce.


      Whe some inspeto in both health and soal                  se         agencies believe that heath
                                                                              deparnts (6 of 8) had diculty
      dearents have grter            enforcement powers, most health
           g legal acons.         Health  deparnts did not      repo a
                                                                   grate number of             sanctions imposed
      than other agencies.

      Beuse of the lak                 data in some licensg agencies, it was not possible to
                                 of Statewide
      detee      whether adstrtive locon                acy
                                                         afec enforment effectiveness. In 22
      States, local agencies can playa major role in linsing and               intig
                                                                           chid car facties.
                                                                                                         facties
      Sixten Stas have home roe prvions, which alow cities or counties to reguate
      if their stada met State             gudelies.
       FREQUENT VISITS ARE BEST WAY TO ENSURE COMPLIANCE. HOWEVER,
       ONLY A PORTION OF FACILITIES ARE MONITORED REGULARLY.

       Inspto visit chid car facties to detee whether a license should be issued or
       renewed monito   compliance, and investiga colats. An inspetion visit includes a
       heath and saety check, a fie review, and chid-sta obseaton. It ca last frm I hour to
       days depending on           e siz and condition of the   facty.
       Al but one of the insptors intervewed coplete a teguto checklt durg a visit. In

       any deficiencies cite If
       prvi     signs. The insptor will
                                        the
                                         either mae
                                                   in
       most cas, an exit conference is held with the prvide to review the checklst and explai
                                          nee        prpars a cotive action plan which tI
                                                     a follow-up viit or ask the provider to infonn
..




     her or hi when the c01Ttion has ben ma. Ths basic                   prss involves considerable
     papCor and follow-up with          provi.
     Many StDes inpect       only a   sample ofUcensed or reglredfamUy homes. .

     Whe 21 States inspet al famy homes           adm;n; strto in 2 other States said few
                                                                          reui
                                                  anuay,


     famy homes ar visite even though anual inspons ar               Nationwide fewer than
     ha (71,00 of 163,078) of al licens or regite famy homes      wer  inspte in 1988.
                                                                            frm 10 to 50
     FJfn States inspt only a samle of homes eah yea, with samples ragigcomplait.
                      in seven States viit famy homs only in response to a
     pent. inspto
     Stas us a varety of other approhes to monito famy homes, includig self-crtcation
     and muti-yea insptions. Two States vit famy homs only for the inti registrtion or
     licensig and do not retu uness         ther is a complait.


     openmn. adtor
     Respondnt believe frquent visits are th

     Nealy ha of inspeto (30) and one-          th
                                                       best    way get an accurat


                                                           of State
                                                                                    pictue of afacUiI'

                                                                     (17) felt that fruent
     visits ar         best way to   mata   reguato complice. Over hal of the resour and
                 the
     refer agency respondents (6 of 11)        agr
     Center and famy home providers genery endor State reguation and inspetion. In fact,
     20 pent of providers reommende mor fruent insptions. One assert "Unless
     somene viits, there s not much point to havig roes." A famy home provider said,
      Famy chid car is a safer envinmnt due to inspons.

     Inspectors sai      thy faced obstales in performng thir dues.


     Ony one-     th of insptors feel they
                                       mo
                                           always have enough             tie to prepar and perform
                                                            obseg the facty s day
     inspons. Aras they felt nee                 atntion include

     prgr offerig trg and tehnca assitace, and being involved in the initial
                                    unded the reguations.
     aplicaon pross to ensur that prvide
      Sever prvide          agr saying therePrvide
                                             is                  re
                                                   also suppoed State education and trg
                                                     to much emphass on keeping and not
      enough on the car chidrn reive.
      reuiments. Foureen (of 50) said they would
                                                 lie                  mo trnig.
      Both prviders and inspetors felt that reguons coverg                 appropriateness and   qualty of th
      chid ca     progr ar vague and leave to              much   ro for individual intetation.
      Accg to a New England insp, ther is a "lot of latitude for interpreting (what a)
      developmentay appropriate progr          is.
      Another obstale mentioned by     inspto was the prblem of "wearng two hats." They
      found it frstrting to relate to provide as both enfor and tehnical consultat. Nealy
      ..                                                            ................... .....




           one-th   of cente prviders (9 of 28) felt        insp
                                                            should be mor suppove an less
                                                     re (expte to be) frend, consultat, and
           police-li. A Southern inpeto sad, ' 'We
           regutor to the stas of facties.

           Into
           unounce
                   it
                        viits.in
                    in some States mae unanounce
           facty as nory          optes. Some
                                                              vits. These vits
                                                                 (14) sad they lack tie



           Whe over hal of the States (27) give prviders. advance notice (avergig
                                                                                       alow inspor to view a
                                                                                                to   conduct


                                                                                                     18   days) of
           upcomig insption visits,       th-qua of into (45 of 61)A believe                         givig advance
           notice may alow provide to      cor violations befor the vit. . facty nory openLtig
           in violaon of sta    to chid   ratios, for exale,
                                                         could come into compliance for the day of the
           vit.
           Insctors often have lare       caseload.

                                                                                   ca inspetion casload, tie
           stdy data prvide  by a Midwest State
                                        famy home
                                                           adto
           AltHough we found no natona remmndations for chid

                                                            caloa
                                                                       suggest a cente caload should be no
                                                                       should be no      mo than 104 facties.
           grter than 55 facties, and a
.I.
            The average yealy insption casload for inspto of both cente and famy homes
                                                                                                 waS


           . caload was 92. Famy chid car            in
             118 facties (60 centers and 58 homes). For inspeto who



                                                           caload
                                                                     visit only centers, the average
                                                         ha an averge caeload of 145 facties.
                                                                  was alost tWce therepo
            As shown in the followig char the averge cente                          hal
            reommende workoad whie the averge famy home caload was nearly one and a
            tis  the reommnde workoad



                                      Inspector Caseloads
                         180
                       . 140 

                         120

                       I 100

                          80 ........

                       P 80

                          40 ....
                          20 ....                                                                    No Recmmedation

                                     Cente.                '.1., HOI     Cete1' an Home.

                                                       Type of Failty 

                                              R,comllndd           Actual CUean)
,.. '




        Some insptors
        st ar
        up with"
                nee One Western admini str,
                   Accorg      to a State
                                            in
                           felt their casload   wer to
                                              "Te diemm
                                                         lae. Th-nie percnt sad more inspetion
                                         sad, "Te caload is physicaly impossible to keep
                                                                  reguator agencies with
                                                                       uti
                                                                       fac by
                                                                              as fruen!ly
        clea enorment madates is that they would not have to be                                if ther
        wer   st to car     out positive    (meas) raer    than negative sactons.

        Accordig to inspectors, staff to chU ras an Ucensed capacity require the most
        moniring w ensure compliance.

                   sta to chid     ratios was the most con    seous violation report Seventy
                                                                                                     agr
        pent    of State   adstrtor       (37 of 53) and tWo-th of their insptors (42 of 65)

        Both center prviders    and resour and
                                               refer agency        sta cite stag as facties ' numbe
                       Upgrg educational reuiments tends to incr              car and
                                                              more States have incr
                                                                                the cost of
        one prblem.
        mas it mo dicult to mata                st to chi raos. Whe
        ad st qualcationsavaiable.
                          to their           regutions, a few Stas have   reuce reuiments in ordr
        to mae mo chid        ca
        Overapacty was the seond most           fruent violation mentioned by inpeto.         Some
                                                                                               sal
                  say it is dicult to hi the      reuinumbe of qualed sta at cunt
        prvi
        levels. A few enroll childrn over their linsed caacty beuse it
                                                                         is ra for al childrn to
        atnd day. Most providers said they want quaed sta
                                                                but can risk pricig themselves
                                                                       t
        beyond the reh of parnts.

        Twenty State adnitrtors cite            xce
                                               g grup         si
                                                          as another common violation.
                                                                          siz of dierent age
        Although a faciity s overa capacty may be lae, Stas may limit the
        grups under
the supervon of
                                      each prvi with the facty. Chd car expert we
        inteewed felt that smaler grup siz          ipves
                                                     quaty of          ca
                                                                   without incrasing its cost.
              th States regulate grup si.
         Twenty-

         Insp    also said supervion -(8), saety (17), re           keepig (11), santation (10), and
         st qualcations (9) nee fruent            enfOrment atntion.

                                                                                          ENFORCE,
         LEGAL SANCTIONS ARE TlME-CONSUMING AND DIFFICULT TO
         EVEN IN CASES OF IMMINENT DANGER.

         States ca use a rage of legal sanctions to    adssnoncomplice. While termnology              and

         application of sanctions vares by State, the most  con penalties ar fines, license
         restctions, and license revocation.


         Takng legal action against violaors is a moor problem.
                                                                        and complex proedur.
         Sta offcials told us that bringing a viola to cour is a lengty
                                                                     and appeals ar tie-consuming
         Doumentation, supervsory approvals, due prss heags,
         and expepsive.
.:   .:   --




           May respndents believe that State linsing agencies with their own sta attorneys ar                 best

               able to tae legal action agaist seous violat. However,            few agencies have such sta.
               The four respndents who spoke positively about their legal supo             al had attorneys within
               their agency. In licensing agencies which do not have     ateys
                                                                         on sta, inspors said that

               their legal representatives ar unble or unwig to prsecte chid               ca
                                                                                 reguation violators.

               Most (42 of 66) insptors cite a nee for strnger and mo imate legal authority.
               Nealy a quar    (15) were conceed th they lack any authorty in crsis situations.
               Inspto say provide      know    th State reguatons "lak teth" A few sad they would lie
               to be able to give providers tickets, siar to spg              mior deficiencies.
                                                                          tickets, fO!



               Sti prosecutin    authorities are   inconstent
               Prsection authority vares frm State Atteys            Gener to local sheris. Accorg
               respndents, loc   prosecuto ar      hesitat to   ta   legal action uness chidr ar in actual
               daJer.
               Oter legal authorties var as well Al but one State linsing           agency have    the power to
               deny a license. Twenty- si States ca suspnd      a licens and 24 have civi        penalties or fing
               authorty. Ofcials in five States can issue  adtrve closu ordrs.
               The followig char ilustrtes the sanctons avaiable as repo                 by State offcials.




                          . Administrative Location of Child Care
                                     Licensina    Agencies
                                           n . ii 8tatel





                                                                                Other
                                                                                Umbrella Agenoles

                                                                     Heal th

! .   ..




                                                                                              usualy rely on
           Most provirs comply when citd. Even for repeat of/endrs,             inspectors

           con-ective actin plans andfoUow up.

           Al States use corrtive action plas.                        note these ar wrttn or verbal plas
                    of the prvider.
                                                       As prviously
                                                                                                             actions
           with prvirs to achieve reguto complice. The plan sets out the titable                     and

           reui
                           cot
           Accg to into, most provide                                               tiely maer.
                                                                cite deficiencies in a

           However, some providers contiualy tete on the           edge of compliance. Ofn these repet
                                                          trg         mata
           in
           offende have neither the money nor the
                   refene to them as " squea wheels " who
                                                         to        compliance. A Southern State
                                                            constady            reui
                                                                           enforcment attntion.

                                                                        agencs do not agree on thir
           Twent-lour Stis    can levy Jines, but Sti liensng
           effectiveness. Some agencies wi        jing auri           rarly use it


           Ofci in th States mentioned        way to stngten enforment Ha of the
                                                  fies as a
                                   fig authorty (14 of 29) believe that authorty to levy ties
           into    frm States without
           would imve                                              th fies ar raly use in the 24 States
                           compliance. However, we found
           with such authority. Ofcial in eight of these States felt tht      fig is not an effective
           enforment measur.


           These respndents   report that fies ar oftn diult             to levy. Some States reuir cour
           appval whie others reuir day                intion   and doumentation. One insptor in                 lae
           Eatern city sad, "The     fies ar so low,     they re not effective.


           Fmes rage    frm $5 to $200 pe day dependig on the severty of the violation. Collectig
                                                         overed or rece on appeal. One State s solution
           fies can be dicult and they ar oftn
           ha ben to withold unpaid fies          frm Sta income       ta refuds.
            Some   intor feel it is counterprouctve to fie prvi                when the money would be bettr

            spnt on 
ca      chin. Ther is al a sentint that
                         for the                                              weather prviders could buy

            their way out of compliance.

            Over half of the States have intermedi satins, such as proviional licenses.

            Prvisional licenses can    be   grte in 33 Stas. Two other us conditional licenses, and four
            ca issue tempora licenses. In al but the     most di                   corrtive action
                                                                       instaces, States use

            plans, warg    lettrS, and compliance coernces pror to sekig these sanctions.

            Santins ar used        priarly for cri       inrventn when       chidren ar in    imminent d!nger.


            Wh all Stats can        close facilities   wi serius   vilans, few ar ever        closed.

            ceed      hild car facilties. In the 27 States wher
              623 sactions were issued       against 142,522
                                                                     re
            In 1988, sanctions were levied agaist fewer than 1 percnt of all licensed registere or

                                                               facties.
                                                                       ar maintaed at the State level,
/ .





   :&l




         State   admini strto ar   reluctat to close a   facty uness   chidrn ar in dager.   Rather   than
         pen"ag provide,                to help them be the best cargiver possible. An Eatern State
                                they want
         insp       sad, "Enforement is     tag peple into      magchanges, not revokig licenses.


         Even though al States can revoke a license, in the 21 States wher inortion was avaiable,
         only 347 facties were close in 1988.

         PARENTAL INVOLVEMENT IS CONSIDERED THE FIRST LINE OF DEFENSE
         BUT MAY BE THE WEAKEST LINK IN THE CHAIN.

         Most Stis require parent access.

         Th-nnHmi
             four States have regutions regarg parnta acss. Reguon reuirments rage
                             in al       facties to restrte viits to some facties. Ou
          frm          te access        tys of
          inteews indicated that prvide not only alow but encourge parnts to visit regaress o(
          State reguations. Most respndents considr parnta parcipation an importt means
          aSsUrg quaty car.


          Parnt do    car, but they often don    t knw wha w look for in thir    chid'  sfaclit.

          Twenty-six State offcis mentioned the nee to educate parnts about reguons and wh
          they ar impot. Only two States madate that parnts reive clasrm education abOut
           assessig their chid' s car facty.

           Sever respndents            that if parnts knew what to look for and what to ask questions
                                suggested
           abut, providers would be forc to tae complice with
                                                                 reguations more seriously. One
           State offci' commnte " Public awarness is         rey
                                                             the  key to the whole situaton.
           Encourge parnts to ask         questions; then prvide wi have to gea up and tae
                                        spc                                                            ca
           of business.

           Most   adstrarrs report Qa parent ar th most frequent source of complaits.
           However, parnts     seldom   call w report problems.
            Whe few States keep detaed rean abut complats, they report that most complaits
            investigate and, if substatiate include in the prvide' s licensur fie. Al States have a
            pross for  fig   complaits, and most    reui their complait prours to be distrbute to
            parnts or posted   in child car facties.

            State offcial say that, due to their lak of knowledge, parnts ' complaits often deal with
            issues not covere by State reguations, such as disagrments with providers over child
            reng matt and holiday or late fees. These complats          must sti be   investigate
             Inspto sad responding to       misdte       complaints ca ad to their alady   heavy   caseload.
--




     . l





            . Sta ar trng to generate more parnt paraton.
                                                                     of parnta parcipation at most
             Insprs and providers indicate that ther is a low levelchidrn
             facties. Respondents said ths was beause parnts of
                                                                          in car must work. They
             'raly have the ti
                            
   or oppoty to visit the facty durg the day. Respndents also told
             us that parnts spnd litte tie researhig their car options. One Midwest State offcial
                    Parnts spnd mo tie shopping for a Ca than choosing their chid' s day care.
             said, &&



             States want parnts to ac as their Ueyes and ea" in the field. To generte
                                                                                      parnta
             parcipation, some States have           crte
                                                    an ary of mates to help parnts mae chid car
             desions. Oter States             reui
                                            regutions to be poste in the           faty.
             Twenty-six Stas madate some degr of parnta parcipation in their chidrn s car.
                                                                                              State
             madates ca include regu prgrss report (15), pr-adsion meetigs (10),       and parnt.

             confernces (10). Five States include parnts on State or facty advior boar.
                                                                                        One State
             ad11jni trto sad, u Centerswith parnt advisor boar tend to be bettr.

             STATES ARE EXPERIMENTING WITH NEW WAYS TO IMPROVE THE OVER­
             SIGHT OF CHILD CARE.

             Sti encourage regitraton through incentves.
              Prvide ar respondig to incentives to registe. These include the Agrcultuthe
                                                                                       Deparent
              Chd Ca              Progr trg and tehncal assistace and cash grts. Ha of    State
                                                                                                  Prgr
              admini         (27) consider the Agrcutu Deparent s Chd Ca Foo
                          trto                                                                 the best
              incentive for registrtion. Prvi     must met State licensig or registrtion reuirments to
              reive       fr
                           meals and snacks for chidrn in their ca. A Western State offcial         estite
              applicaons for cecation jump 60                 pent
                                                             when ths          prgr
                                                                               was established

              May       State      admini strtors (18) sad prvide   trg
                                                                   is one way to encourge registrtion.
              They feel trg             progr      incr networg amng prvide. Expert considr
              netWorg an              impot facto in reucig tuover amng famy             home   prviders.

              At lea            si States offer other incentives for registrtion. Th   States offer cah grts up
              $20 one lower             libilty   insurce rates. Oter   offer fr smoke    detetor or
              extiguher.
              These ar just a few of the effective pratices         repo by respndents. Mor inonntion is
              prsente in our companion repo ' 'Effective            Prces in Child Ca Enforcement,
              OEI- 03- 89- 00701.
      ..




           WORKING.
           RESOURCE AND REFERRAL AGENCIES ARE EMERGING AS AN EFFECTIVE
           SOURCE FOR TRAINING, TECHNICAL ASSISTANCE, AND PROVIDER NET­


           Resource and refen-al agencies link up parents wi approprie providers. Some inspect
           homes; in a few plaes they ar th only source of              out
                                                                 inspection.

           Resour and referr          agencies prvide inortion,            trg,    and referrs for parnts,
                                                                                       fudig
           employer, and chi          ca   prviders. Many States prvide
                                                                paral          for these agencies.
           At leat two national resoure and refer broker contrt with individual agencies
                                                                                                the     acss
           countr to prvide         ses      for employees of lare     corons.            icaly, sever resour
           and.       refer   agencies cover the nee of one State.

                resour and referr agency            genery gets inortion         frm parnts todetere their
           chid ca nee. Al             agencies visite provide parnts with educational      material, includig
           inoron on choosing quaty car. Although                  only a few distrbute copies of State
                                                                           approprate
           reguons, most provide a      summary. Agencis give parnts a
                                            reble                                            lit of

           prvi (usualy th), mag it clea that their referrs ar not reommendations.
.I.         Sever States contrt                    refer agencies to either license providers or
                                        with resour and
             monito subsidi car. These agencies fruendy spnsor the Deparent of Agrcultu
           . Chd Ca Foo Prgr In carg out their responsibilties under ths progr, they visit
             prvide th ties per year.
             Qf the 11 resoure and refer agencies in our samle, 3
                                                                  viite some of the providers they
            liste Agency sta have amied view of their role in monitog. The president of one
            Ea reut      and referr agency said, "Licensig agencies don t tae advantage of
            seces li our which could assist in monitog." However, at least two otherl'sour                        and
            refer respndents wer strngly opposed to a monitog role.
            Resoure. an refen-al agencis recrut             and trai   new provirs and offer a range of other
            serves.




            Resour and refer agencies view retmnt and retention as their ma goal for famy
            chid car prviders. Over hal of the agencies inteewed (6) have established support
            grups to help reuce provide "bur-oUL" They repo lower tuover and grter
            self-estem among suppo grup parcipants. Five famy chid car providers mentioned
            resour and referr seces as an incentive to regite. Seven said they belonged to a
            suppo grup spnsor by                    resour and referr agency.

            Another major objective of resour and            refer agencies is helping providers fid qualifed
             sta. Low salares combined with a tight labo maet result in high tuover.                  To addrss   this
            prblem, some resoure and referr              agencies matan substitute worker pols.
; .




      Ot resour and     referr agency     activities include offerg prvide grup purhaing


      provide.
      discunts, grup liabilty   and health insurce, advice in solvig prblems, and toy lendig
      libres. Two agencies in our surey offer fiancial assistace to their famy child car
..

     I.. .




                                         EFFECTIVE PRACTICES

             In our companon repo to ths volum, we descbe a numbe of prtices States might
             conside to imprve their enforment expeences. These prtices include tehiques to
             improve legal sanctions and proedurs, insptions, moneta incentives and penalties,
             parnta involvement, and trg      and tehncal assistace for providers. For more
                                                                            Prtices in Chd
             inortion, pleas refer to Ofce of Insptor Gener, "Effective
             Enforcment," OEI-03- 89- 0001.
-.




                                          ENDNOTES

     1. U. S. Deparnt of   Comm, "Chd Car Costs Estite            at $14 Bilon in 1986,
     Census Burau Surey Shows, " Washigtn, U. S. Deparent of
                                                             Commerc, 1989. pp. 1­

                                                                    State Law, " 1989.
     2. National Acadmy of Sciences, " Regulation of Chid Car Under
     Unpublihed data

     3. U. S. Deparent of Commer, p.    1.



     4. Moran, G., pp. 4-1 - 4-6.

     5. Natona Acadmy of Sciences, Unpublished data
                                             APPENDIX





                               Number        of   Respondents
               State Admtrtors
               Insptor
               Chd Ca     Center Prviders
               Famy Chd    Ca Prvide
               Resoure and Refer Agencies
               Chd Advocac Grups                                             11



.1.




                      Number      Preschool ChIldren In
                                        of

                       Unt:egulated Family Care Homes

      Number of Chdrn      Ca for in Famy Homes                      690,00*
      Numbe of Chdrn       Ca for in Regulate Homes                  371,383**

      Total                                                              617

      * U. S. Census Burau Estites for 1986 (1/89)

      ** The   repo capacty of reguate famy chid car homes is frm                 34
      States and the Distrct of Columbia which reprsent 76 percnt of the tota
        S. poulation for chidrn unde 5 year of age. In order to estimate the
      numbe of reguate facties in the U. S., the followig equation was use:

                Capacty Repo            = 76 percnt of Tota U. S. Capacity
                    042,21 = .76 (x)
                    371,383 = x
